Tennessee Valley Authority
                 Authority, 400 West Summit Hill Drive, Knoxville, Tennessee 37902-1401




Richard F. Chambers
Inspector General



April 30, 2001




TO THE TVA BOARD OF DIRECTORS AND THE UNITED STATES CONGRESS



I am pleased to submit this semiannual report on the accomplishments of TVA’s OIG for the six-month
period ending March 31, 2001.

This reporting period has continued to reflect significant change for the OIG. Since my appointment as the
Inspector General in August 2000, we have implemented a number of initiatives designed to enhance OIG
performance and to ensure alignment of our goals and objectives with the needs of our stakeholders. We
are currently undertaking development of a comprehensive strategic plan and have articulated an OIG
vision of . . . illuminating today’s challenges and tomorrow’s solutions. We believe this vision will lead
us not only to perform our traditional roles, but to identify emerging trends and challenges with potential
impact on TVA and to offer solutions to our stakeholders.

On November 1, 2000, the President signed Public Law 106-422 designating the position of TVA Inspec-
tor General as presidentially appointed. I view this legislation as a strong step designed to ensure the TVA
Inspector General is independent in appearance as well as in fact.

I appreciate the support TVA’s Board of Directors has demonstrated on behalf of the OIG since my arrival.
The Board has repeatedly affirmed its view that the office is independent and plays a vital role in promoting
economy and efficiency within the agency. During the semiannual period, the Board approved an increase
in the TVA OIG budget. This increase will permit me to enhance OIG technology, improve infrastructure,
and increase the OIG staff for the first time in 13 years. This reverses a trend of declining OIG budgets and
marks a near return to staffing levels existing in 1997.

During the next six months, we will continue our strategic planning process and implement changes in the
OIG’s structure and processes as warranted. In addition, I look forward to continuing and enhancing the
relationships I have established with OIG stakeholders during my tenure as the TVA Inspector General.

Sincerely,




Richard F. Chambers



                                                      SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001
■    C O V E R              P H O T O




Integrated Management                       stone. In addition, the locks provide       Land Use Management — TVA
of the Tennessee River                      passage to more than 20,000 recre-          manages almost 11,000 miles of

System                                      ational craft each year.                    public shoreline to ensure compatible
                                                                                        development of lakeside property for
Featured on the cover is TVA’s              Flood Control — TVA’s system of             residential and commercial use.
Hiwassee River in Cherokee County,          main channel and tributary dams is
North Carolina. The Hiwassee River is       managed to control floods. Such use         Recreation — Over 293,000 acres of
part of the Tennessee River system,         prevents an estimated $173 million in       public lands and 480,000 acres of
which includes the Tennessee River          damage each year in the Tennessee           recreational lakes are managed to
and its 12 tributary watersheds. This       Valley, as well as another $21 million in   support wildlife and provide outdoor
system encompasses 41,000 square            potential losses along the Ohio and         recreation, as well as to protect water
miles in seven states and is the fifth      Mississippi Rivers.                         quality. TVA also releases water from
largest river system in the United                                                      system reservoirs for white water
States. It not only provides power to       Power Supply — Hydropower, the              rafting and other special recreational
the Tennessee Valley, it is the back-       most reliable, efficient, and economical    events. Water-based recreation on
bone of a sustainable river-based           of renewable power resources, is            the Tennessee River system gener-
economy. TVA manages the system             generated at 29 of TVA’s 49 dams.           ates regional annual revenues of
to carefully balance six related public     The river system also provides water        approximately $2 billion from anglers,
benefits—river navigation, flood            needed to cool six of TVA’s fossil          boaters, rafters, and other reservoir
control, power supply, water quality,       plants and three nuclear plants while       and river users.
land use, and recreation.                   maintaining water temperatures in
                                            compliance with state requirements.         TVA’s integrated river management
River Navigation — TVA’s system of                                                      approach optimizes the river system’s
dams and locks provides uninter-            Water Quality — Stored water is             potential, carefully balancing these
rupted navigation on 652 miles of the       released from TVA dams to maintain          multiple benefits to citizens and the
Tennessee River from above Knoxville,       water levels needed for water quality,      environment because to maximize one
Tennessee, to Paducah, Kentucky,            as well as for navigation and recre-        would be detrimental to the others.
where it joins the Ohio River. River        ation. More than four million people        The OIG supports TVA’s river man-
freight is handled at 183 public and        get their drinking water from the           agement efforts through various
private terminals across the region.        Tennessee River system. Water flow          reviews, including audits of dam safety
Shipping by barge saves more than           and dissolved oxygen are monitored,         and security, contract audits of
$400 million each year over rail or truck   and public land is managed to protect       commercial ventures on the lakes, and
shipping for products such as coal,         water quality for the people, wildlife,     other reviews related to TVA shoreline
grain, iron ore, chemicals, sand, and       and aquatic life that depend on this        management issues.
                                            resource.




     TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                             C O N T E N T S            ■




1    Executive Summary                                   7   Audits
                                                                                                        OFFICE OF THE
                                                                                                        INSPECTOR
2    TVA Profile                                         12 Investigations                              GENERAL

                                                                                                        SEMIANNUAL
3    Office of the Inspector General                     20 Special Projects                            REPORT

                                                                                                        OCTOBER 1, 2000
5    Special Features                                    22 Legislation and Regulations
                                                                                                        THROUGH
                                                                                                        MARCH 31, 2001




Appendices
    1. OIG Audit Reports Issued During the Six-Month Period Ending March 31, 2001
    2. OIG's Report on Management Decisions for the Six-Month Period Ending March 31, 2001
    3. Investigative Referrals and Prosecutive Results
    4. Audit Reports With Corrective Actions Pending
    5. OIG Reporting Requirements




                                                                  SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001
■    E X E C U T I V E            S U M M A R Y




                     We continued our efforts to support TVA        ground transportation needs, and
                     by providing quality audits, investigations,   (7) review of internal controls over the
                     special projects, and task force assign-       revenue collection processes used by
This report          ments. During this reporting period, we        TVA’s watershed teams. Representative
summarizes the       identified almost $74 million in recoveries,   special projects included: (1) a congres-
                     fines/penalties, potential savings,            sional advisory review of TVA’s office
activities and
                     questioned costs, or funds which could         space utilization and vacancy rates and
accomplishments      be put to better use. Management took          (2) a program review of the TVA Concerns
of TVA's OIG         numerous actions in response to our            Resolution Program resulting in five
                     recommendations.                               assessment reports.
during the

six-month period     We completed 43 audits and 13 special          We closed 83 investigations, including
                     project reviews. We identified $2.6 million    task force projects, which led to
ending
                     in questioned costs and about $70.4 mil-       $997,106 in recoveries, projected
March 31, 2001.      lion in funds that could be used more          savings, and fines/penalties; administra-
                     effectively. Representative audits             tive or disciplinary action taken against 30
                     included the following: (1) preaward and       individuals; and other corrective action in
                     postaward contract audits, (2) a congres-      9 cases. Matters we investigated
                     sional advisory review of TVA’s Executive      included potential workers’ compensa-
                     compensation and benefits, (3) TVA’s           tion fraud, environmental crimes, contrac-
                     management of the decommissioning              tors’ fraudulent claims for temporary living
                     fund, (4) pre-implementation reviews of        expenses, health care fraud, and em-
                     several system development projects in         ployee misconduct. Our investigations
                     TVA’s supply chain system, (5) an internal     also led to 19 indictments and 14
                     control review of agent officer payments,      convictions.
                     (6) review of TVA’s program to meet




1    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                T V A           P R O F I L E           ■




                              Bowling Green
                                             •

                                                                              •
                                                                           Bristol


                                    •                          Knoxville
                                                                                     29 hydroelectric dams, 4 combustion
                                 Nashville
                                                               •
              Jackson
                •
                                                                                     turbine plants, and a pumped storage
  Memphis
  •                                              Chattanooga
                                                 •
                          •
                        Muscle
                                   Huntsville
                                        •                                            plant. These plants provide over
                        Shoals

            Columbus
                    •                                                                29,469 megawatts of net dependable
                                                                                     generating capacity. TVA’s electric power
                                                                                     business is entirely self-funding.               TVA's 13,121

                                                                                     TVA’s major functions include (1) multiple       employees serve
TVA is a federal corporation, the nation’s
                                                                                     purpose management of the Tennessee              an 80,000-square-
largest wholesale producer of electric
                                                                                     River system; (2) generation, sale, and
power, a regional economic development                                                                                                mile region
                                                                                     transmission of electricity to wholesale
agency, and a national center for environ-
                                                                                     and large industrial customers; (3) invest-      spanning seven
mental research. TVA’s statutory
                                                                                     ment in economic development activities
responsibilities include management of                                                                                                states.
                                                                                     that generate a higher standard of living
the nation’s fifth largest river system.
                                                                                     for citizens of the Tennessee Valley;
                                                                                     (4) stewardship of TVA assets and
TVA’s mission, as stated in its Annual
                                                                                     provision of recreation opportunities on
Performance Plan, is “to develop and
                                                                                     federal lands entrusted to TVA; and
operate the Tennessee River system to
                                                                                     (5) research and technology development
minimize flood damage and improve
                                                                                     that addresses environmental problems
navigation, and to provide energy and
                                                                                     related to TVA’s statutory responsibilities
related products and services safely,
                                                                                     for river and land management and power
reliably, and at the lowest feasible cost to
                                                                                     generation.
residents and businesses in the multi-
state Tennessee Valley Region.”
                                                                                     TVA is governed by a three-member
                                                                                     Board of Directors appointed by the
TVA’s programs fall into two separate but
                                                                                     President and confirmed by the Senate.
interrelated activities—the power
                                                                                     During this reporting period, Craven
program and the resource management
                                                                                     Crowell was the Chairman, and Skila
programs. TVA’s power system consists
                                                                                     Harris and Glenn L. McCullough, Jr.,
of 11 coal-fired plants, 3 nuclear plants,
                                                                                     were Directors.



                                                                                     SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001                 2
■   O F F I C E     O F      T H E        I N S P E C T O R      G E N E R A L




                    Organization                                 Office Authority
                    The OIG consists of two major opera-         TVA’s OIG was originally created by the
                    tional units—Audit and Investigative.        TVA Board of Directors in October 1985.
                                                                 The TVA OIG became statutory under the
                    The OIG’s Audit Operations unit consists     Inspector General Act Amendments of
                    of four departments. One is devoted to       1988. Those amendments established
                    contract-related audits, both preaward       OIGs in 33 agencies, including TVA,
                    and postaward reviews; the other three       where the agency head was to appoint
                    departments focus, respectively, on          the Inspector General. The OIG’s duties
                    (1) performance and special projects,        and authorities at those agencies are, by
                    (2) financial, and (3) ADP-related issues.   force of law, virtually the same as those
                                                                 for offices having an Inspector General
                    The OIG’s Investigative Operations unit
                                                                 appointed by the President. With the
                    consists of two investigative depart-
                                                                 enactment of Public Law 106-422 on
                    ments—Financial Investigations and
                                                                 November 1, 2000, the President was
                    Internal Investigations. Both depart-
                                                                 given the authority to appoint the TVA
                    ments work a variety of cases. Financial
                                                                 Inspector General.
                    Investigations focuses on contract and
                    health care cases, while Internal Investi-   The Inspector General is responsible for
                    gations focuses on nuclear issues,           conducting audits and investigations
                    employee conduct issues, environmental       relating to TVA programs and operations,
                    cases, and benefits and entitlement          while keeping the TVA Board and
                    programs. In addition, a hotline analyst     Congress fully and currently informed
                    reports to the Assistant Inspector           about problems and deficiencies relating
                    General for Investigations.                  to the administration of such programs
                                                                 and operations. TVA’s Inspector General
                                                                 is independent and subject only to the
                                                                 general supervision of the TVA Board of
                                                                 Directors. The Inspector General’s
                                                                 authority includes conducting any audit
                                                                 or investigation he deems necessary or
                                                                 desirable, issuing subpoenas, administer-
                                                                 ing oaths, and granting confidentiality.




3   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                 O F F I C E   O F   T H E    I N S P E C T O R   G E N E R A L




Staffing and Budget
The OIG's offices are in the TVA head-                    The OIG's fiscal year 2001 budget was
quarters in Knoxville, Tennessee. The                     $8.6 million with a budgeted headcount
OIG also has a satellite office in Chatta-                of 90 employees.
nooga, Tennessee.


                           OFFICE OF THE INSPECTOR GENERAL
                                        3/31/01



                                        INSPECTOR GENERAL
                                                     ■
                                           Richard F. Chambers




                                                                           Manager
                 Legal Counsel               Project Manager           (Human Resources)

                       ■                             ■                          ■

                 Richard P. Levi               Linda L. Folks              Kay T. Myers




                    Assistant                                              Assistant
                Inspector General                                     Inspector General
                     (Audits)                                           (Investigations)
                        ■                                                      ■
                   Ben R. Wagner                                       G. Donald Hickman


                   ■ Contract                                            ■ Financial
                     Audits                                                Investigations
                     Paul E. Ivie                                          Ron W. Taylor
                     Manager                                               Manager
                   ■ Financial Audits                                    ■ Internal
                     Jill M. Matthews                                      Investigations
                     Manager                                               C. Dale Hamilton
                                                                           Manager
                   ■ Information
                     Technology Audits
                     Deborah M. Thornton
                     Manager

                   ■ Operational
                     Audits and
                     Special Projects
                     Lewis M. Ogles
                     Manager




                                                           SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001                4
■   S P E C I A L        F E A T U R E S




                    OIG’S NEW VISION

                    During the first annual OIG training       OIG has developed a new vision, which
                    symposium (see next article), the          the Inspector General introduced during
                    Inspector General discussed the strate-    the symposium.
                    gic planning process currently underway
                    in the OIG. As part of that process, the   The strategic planning process contin-
                                                               ues, and we will report the results of that
                                                               process in the next semiannual report.




                          . . . illuminating today’s challenges
                               and tomorrow’s solutions . . .




5   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                      S P E C I A L      F E A T U R E S




FIRST ANNUAL OIG TRAINING                           community, (3) values in public service,
SYMPOSIUM                                           (4) coping with change, and (5) per-
                                                    sonal accountability.
During this reporting period, we held our
                                                ■   Numerous breakout sessions also
first training symposium for OIG employ-
                                                    were offered on issues of interest to
ees. Our theme focused on creating an
                                                    different groups, such as
effective team to address future chal-
                                                    (1) audits and investigations
lenges and opportunities facing both TVA
                                                    in the cyber age, (2) financial
and the OIG:
                                                    fraud, (3) auditors and
                                                    investigators working
Opportunity (“a good chance for progress”)
                                                    together, (4) creativity and
Ingenuity (“cleverness or ability of design”)       maximum performance,
Growth (“progressive development”)                  (5) the audit profession’s
                                                                                       Director Glenn L. McCullough, Jr.
                                                    future direction, and
Sessions during the three-day sympo-                (6) public speaking.
sium included:
                                                Feedback from OIG employees indicated
■   Informative briefings,                      the symposium was a rousing success.
■   Training,                                   Comments about the speakers included
■   Motivational talks, and                     terms such as “informative,”
■   Hands-on teambuilding exercises.            “thought-provoking,” “dy-
                                                namic,” and “refreshing.”
We were fortunate during this sympo-            Comments about the overall
sium to have as speakers Director               symposium included “excel-
Glenn L. McCullough, Jr., William M.            lent,” “ran like clockwork,”
Outhier (Senate Governmental Affairs            “great variety,” “morale
Committee Investigative Counsel), TVA           booster,” “time well spent,”
executives, motivational speakers, an                                                          William M. Outhier
                                                and “a great success.” We
Assistant United States Attorney, and           plan to make this symposium an annual
representatives from other agencies.            event, and we anticipate next year’s
Topics included the following.                  symposium will be even better.

■   During general sessions for all OIG
    employees, presentations included
    (1) competitive challenges facing TVA,
    (2) issues facing the Inspector General



                                                SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001                         6
■   A U D I T S




                    Audits are initiated from (1) the OIG        ■   We reviewed proposed non-manual
                    annual workplan, (2) issues identified by        labor and indirect cost rates of a prime
                    the OIG subsequent to the annual                 contractor’s affiliated companies
                    workplan, (3) issues identified by               under a $151 million contract involving
                    cooperative efforts with TVA manage-             TVA’s clean air initiatives. We esti-
                    ment, or (4) concerns raised by TVA              mated TVA could save $10.7 million in
                    management or others. During this                affiliated company costs by using cost
                    reporting period, we issued 43 audit             reimbursable contract terms and
                    reports which identified over $2.6 million       eliminating certain indirect cost
                    in questioned costs and over $70.4 mil-          markups.
                    lion in funds which could be put to better   ■   We reviewed a contractor’s proposal
                    use (see Appendix 1).                            to provide engineering studies and
                                                                     boiler pressure parts for TVA fossil
                    Summary of                                       plants. We estimated TVA could save
                    Representative Audits                            up to $3 million by (1) using lower

                    Our audits included preaward and                 priced material vendors, (2) negotiating

                    postaward audits of TVA contractors as           a lower general and administrative

                    well as computer security reviews and            rate, (3) limiting fabrication cost

                    performance reviews of TVA programs.             reimbursement, and (4) eliminating
                                                                     duplicate material cost and contin-
                    PREAWARD CONTRACT AUDITS                         gency allowances.
                                                                 ■   We reviewed the various multipliers
                    We completed eight preaward audits to
                                                                     (i.e., the percentage of list price billed
                    support TVA management in negotiating
                                                                     to TVA) and engineering labor rates
                    procurement actions. These audits
                                                                     proposed for an estimated $11 million
                    identified opportunities for TVA manage-
                                                                     contract extension related to control
                    ment to negotiate savings totaling
                                                                     systems and the Selective Catalytic
                    $15.1 million. As of the end of this
                                                                     Reduction projects at TVA’s fossil
                    reporting period, TVA had successfully
                                                                     plants. We estimated the contractor’s
                    negotiated $10.7 million in savings and
                                                                     proposal to directly bill TVA for
                    was negotiating additional potential
                                                                     engineering labor rather than include
                    savings totaling over $4 million. The
                                                                     the costs in its hardware prices could
                    following were the more significant
                                                                     increase TVA’s total cost by about
                    preaward audits we issued during this
                                                                     $1 million.
                    reporting period.




7   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                           A U D I T S




CONTRACT COMPLIANCE AUDITS                         TVA paid an additional $0.7 million
                                                   because the contract’s pricing
During this reporting period, we com-
                                                   methodology was not followed.
pleted 21 contract compliance audits and
identified (1) $2.5 million in ineligible and   REVIEW OF TVA’S EXECUTIVE
unsupported costs and (2) $3.8 million in       COMPENSATION AND BENEFITS
potential future savings. Management
                                                At the request of Congressman Zach
generally agreed with our findings and
                                                Wamp, we (1) identified the compensa-
has taken or plans to take appropriate
                                                tion and benefits provided to TVA’s
corrective action. Highlights of our more
                                                higher paid employees for calendar years
significant contract compliance audits
                                                1997 through 2000 and (2) compared
follow.
                                                the cash-related compensation for some
■   A communications contractor                 TVA executive positions to the compen-
    overcharged TVA about $0.6 million          sation for similar positions at other
    on a $3.7 million contract. The             utilities and federal/state agencies. In
    overbillings pertained to unallowable       summary, we found the average cash-
    administrative fees and labor rate          related compensation for TVA’s five
    charges that exceeded the terms for         highest paid employees was lower than
    the contract.                               the average for the highest paid employ-
■   A not-for-profit corporation that           ees of the 24 utilities we surveyed. In
    provided staff augmentation services        comparison to six federal/state agencies
    to TVA recovered up to $2.9 million in      we surveyed, TVA’s cash-related com-
    administrative costs on several prior       pensation for five selected executive
    contracts.                                  positions was higher than the average
■   A hydro modernization services              compensation paid to incumbents with
    contractor charged TVA a royalty fee        similar position titles.
    that exceeded the company’s actual
                                                REVIEW OF TVA’S
    rate. This resulted in about $0.7 mil-
                                                DECOMMISSIONING FUND
    lion in excessive charges to TVA from
    1993 through 1999. We estimated             TVA established a nuclear decommis-
    TVA could save about $0.5 million on        sioning fund in the early 1980s to meet
    future projects by negotiating a more       future nuclear plant decommissioning
    appropriate royalty fee. We also found      obligations. We assessed the reason-
                                                ableness of TVA’s internal controls and




                                                SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001   8
A U D I T S




                    the investment strategy being used to        TVA management decided to postpone
                    manage the fund. In summary, we found        implementation of its Supply Chain
                    TVA’s internal controls were adequate,       System because of unresolved software
                    and the investment strategy was sufficient   and interface problems. We issued three
                    to meet future decommissioning needs.        reports conveying our findings to
                    We also found, however, that TVA’s active    management. Specifically, we found the
                    investment strategy of using investment      security and testing plans and proce-
                    managers had actually resulted in a lower    dures were adequate. In addition, we
                    return for the fund over the four-year       reported the majority of key controls
                    period covered by the audit than TVA         were successfully tested. As implemen-
                    would have received using a passive          tation proceeds, we will continue our
                    investment strategy. Assuming the same       reviews and report to management on
                    return for both investment strategies, we    the adequacy of the designed internal
                    estimated the present value of converting    controls and testing results.
                    to a passive strategy would save TVA up
                                                                 On March 5, 2001, TVA implemented a
                    to $49.9 million over the expected life of
                                                                 new fuels management system (FMS).
                    the fund through reduced management
                                                                 Our reviews of FMS security and testing
                    fees. TVA management has taken action
                                                                 found the security and testing plans,
                    to allocate more assets to passive
                                                                 procedures, and results were adequate.
                    investments.

                    PRE-IMPLEMENTATION REVIEWS                   CONTROLS OVER AGENT
                                                                 OFFICER PAYMENTS
                    TVA has invested over $20 million in two
                                                                 TVA uses agent officer checks as a
                    systems to process its purchases of
                                                                 mechanism for making quick, one-time
                    materials, services, and fuels. To support
                                                                 or unique payments as an alternative to
                    this effort, the OIG developed a pre-
                                                                 using purchasing cards or TVA’s
                    implementation review plan to ensure key
                                                                 accounts payable system. We reviewed
                    areas such as internal controls, security,
                                                                 agent officer payments totaling
                    testing, and system and data conversion
                                                                 $21.5 million over a 2½ year period and
                    were properly handled prior to
                                                                 identified several internal control weak-
                    implementation.
                                                                 nesses related to computerized data,
                                                                 documentation, and management




9   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                              A U D I T S




oversight. TVA management agreed with          REVIEW OF TVA’S CURRENT
our findings and is taking action to           ARRANGEMENT FOR MEETING
                                               PERSONNEL GROUND
improve its internal controls.
                                               TRANSPORTATION
REVIEW OF TVA COAL QUALITY
                                               Prior to fiscal year 1997, TVA’s ground
ADJUSTMENT REPORT (CQAR)
PAYMENTS                                       passenger transportation needs were
                                               predominantly met through a TVA-owned
TVA generates CQARs to calculate price         motor pool and assigned vehicle opera-
adjustments for differences between            tion. In fiscal year 1997, TVA eliminated
contract specifications and actual             the motor pool and many assigned
delivered coal. During fiscal year 1999,       vehicles and moved to use of rental and
TVA processed 511 CQAR transactions            leased vehicles.
which resulted in price adjustments
totaling about $20 million.                    We assessed the cost effectiveness of
                                               the current arrangement for meeting
We assessed the accuracy of a sample of        personnel ground transportation needs.
48 CQAR adjustments totaling $8.5 mil-         We estimated the current arrangement
lion and identified about $0.13 million in     cost about $1.6 million more to own and
net overpayments to coal vendors.              operate annually than would a reestab-
Based on these sample results, we              lished motor pool and assigned vehicle
estimated the total vendor overpayments        operation, provided an infrastructure
for fiscal year 1999 to be about $0.7 mil-     similar to the operation in fiscal year 1996
lion. TVA management agreed with our           could be achieved. We recommended
findings and initiated action to recover the   TVA management take action to reduce
overpayments and institute automated           costs by (1) negotiating lower rates with
controls to minimize the likelihood for        current or alternative vehicle suppliers or
future overpayments. TVA management            (2) reestablishing a motor pool operation
subsequently collected $85,652 from            with an infrastructure analogous to the
coal vendors.                                  fiscal year 1996 arrangement. TVA
                                               management disagreed with our findings.
                                               However, TVA management provided
                                               information about action items and
                                               initiatives currently underway which were
                                               consistent with the intent of our
                                               recommendation.




                                               SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001      10
A U D I T S




                     REVIEW OF REVENUE
                     COLLECTION PROCESSES AT
                     TVA’S WATERSHED TEAMS

                     TVA Resource Stewardship consists of
                     watershed teams that manage a wide
                     range of products and services, including
                     the use of recreation areas, permits to
                     construct various projects and facilities
                     along TVA’s river system, and utilization
                     of TVA land for commercial or personal
                     use. The watershed teams collected over
                     $3.3 million for these products and
                     services in fiscal year 2000.

                     We assessed the adequacy of the
                     internal controls for collecting revenue
                     and identified several weaknesses. TVA
                     management agreed with our findings
                     and is taking appropriate corrective
                     action.




                                          UNRESOLVED AUDIT REPORTS WHICH WERE
                                             ISSUED PRIOR TO OCTOBER 1, 2000

                       Listed below is one audit report which we issued before this reporting period began and
                       for which no management decisions were made by March 31, 2001. We expect to report
                       the management decision in our next semiannual report.


                        DATE                                        WHY MANAGEMENT DECISION
                       ISSUED              REPORT TITLE                  HAS NOT BEEN MADE

                       06/16/00           Valmont Industries        TVA management is negotiating the
                                                                    audit findings and plans to report the
                                                                    result of the negotiations in April 2001.




11   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                    I N V E S T I G A T I O N S       ■




During the last six months, we substanti-        TVA employees were incarcerated, and as
ated allegations in 23 of the 83 investiga-      a result, their benefits were suspended as
tions we closed—over 27 percent. Our             follows.
investigations, including task force
projects, resulted in $997,106 in recover-       ■   A former TVA construction laborer

ies, projected savings, and fines/penal-             was incarcerated upon being con-

ties; 19 indictments; and 14 convictions.            victed of (1) trafficking in a controlled

Representative investigations are                    substance (second degree) while in

highlighted below.                                   possession of a firearm and (2) pos-
                                                     session of marijuana while in posses-
Summary of                                           sion of a firearm. The former laborer
Representative                                       was sentenced to 12 years’ incarcera-
Investigations                                       tion on the two charges. As a result of
                                                     our investigation, OWCP benefits have
FALSE CLAIMS—OFFICE OF
WORKERS’ COMPENSATION                                been suspended during the
PROGRAMS (OWCP)                                      individual’s confinement, saving TVA a
                                                     projected $205,920.
During this reporting period, our investi-       ■   A former TVA boilermaker pled guilty to
gations of Federal Employees’ Compen-                felony drug trafficking charges during
sation Act (FECA) cases led to recoveries            June 2000 and was sentenced to
and projected long-term savings totaling             seven years in prison. (He had been
over $500,000. We investigated a variety             incarcerated since his December 1999
of cases, and our results included                   arrest.) Additionally, investigation
evidence showing two recipients were                 revealed he was imprisoned approxi-
not entitled to receive wage-replacement             mately 9½ months during 1995 and
benefits since they were incarcerated                1996 on other felony drug convic-
felons, and others receiving wage-                   tions. OWCP declared an overpay-
replacement benefits did not report their            ment of $12,269 to be deducted from
employment activities to OWCP as                     the individual’s future benefits. The
required.                                            overpayment, combined with pro-
                                                     jected long-term savings (based on
Benefits Suspended—Incarceration
                                                     his minimum date of prison release),
Under FECA, benefits cannot be provided
                                                     totals at least $66,071.
to any individual confined to a correc-
tional facility following a felony conviction.
Our investigations revealed two former



                                                 SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001   12
I N V E S T I G A T I O N S




                        Loss of Benefits—False Statements                FALSE CLAIMS—TEMPORARY
                                                                         LIVING EXPENSES (TLE)
                        To receive benefits through the FECA, a
                        recipient must periodically submit forms         During this reporting period, we contin-
                        to OWCP reporting all employment                 ued our efforts to reduce TVA contract
                        activities (including self-employment).          costs by identifying fraudulent and
                        OWCP bases the recipient’s continuing            ineligible TLE paid to TVA contractor
                        eligibility for FECA benefits on these           employees.
                        forms. Failure to disclose employment
                        information to OWCP can bring about              One of our TLE investigations resulted in
                        administrative, civil, or criminal penalties.    a financial settlement and improved
                        Highlights of these investigations follow.       processes for avoiding overpayments.
                                                                         We investigated TLE paid to employees of
                        ■     A former TVA property maintenance          a contractor company working at TVA
                              worker was actively self-employed as a     fossil plants. We found several employ-
                              handyman and did not report those          ees received TLE to which they were not
                              activities or earnings to OWCP. As a       entitled. The company responded to our
                              result of our investigation, OWCP          findings by contending, in part, that its
                              reevaluated the individual’s capacity to   employees’ interpretation of the agree-
                              work and reduced his compensation          ment with TVA resulted in some of the
                              accordingly, resulting in a projected      TLE overpayments, and the contract did
                              long-term savings to TVA of                not require the company to check the
                              $261,183.                                  veracity of all its employees’ TLE claims.
                        ■     A former TVA boilermaker was the
                              operator and primary employee of a         As a result of our investigation, TVA
                              boat repair business and did not           Procurement:
                              report his activities or earnings to
                                                                         ■   Identified deficiencies within TLE
                              OWCP. As a result of our investiga-
                                                                             policies and procedures in partnering
                              tion, OWCP declared the individual
                                                                             agreements and will incorporate
                              was overpaid $29,102, to be de-
                                                                             clarifications to help eliminate varying
                              ducted from his future benefits.
                                                                             interpretations of the policies;
                              (The United States Attorney, Eastern       ■   Will closely monitor the eligibility-
                              District of Tennessee, declined                certification process of TVA’s contrac-
                              prosecution in these two cases in              tors and request further investigation
                              favor of administrative remedies.)             by contractors for TLE certifications
                                                                             that appear questionable; and


13   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                            I N V E S T I G A T I O N S




■   Negotiated a $71,033 settlement with         channel of communication through
    the contractor company for overpay-          TVA’s computer security firewall, which
    ments related to our findings.               could have resulted in TVA’s network
                                                 being exploited by hackers. Furthermore,
TVA COMPUTER-NETWORK
                                                 any virus or corruption incurred by the
SECURITY
                                                 University of California at Berkeley system
Our investigation revealed that 16               could possibly have been introduced into
employees and 1 contractor in 4 TVA              TVA’s network.
organizations violated TVA policy by
                                                 Seventeen employees were given oral
participating in a University of California at
                                                 warnings as a result of our investigation
Berkeley project which involved installing
                                                 of the SETI downloads. Additionally,
a screensaver program called “SETI
                                                 TVA’s IS organization instituted an action
[Search for Extraterrestrial Intelligence]
                                                 plan to heighten computer security
@home” on their TVA computers. Fifteen
                                                 awareness. The plan included declaring
of these individuals were members of
                                                 November 2000 “Computer Security
TVA’s Information Services (IS)
                                                 Awareness Month” TVA-wide. During
organization.
                                                 November, IS sponsored a computer
The University of California at Berkeley is      security awareness poster contest, a
engaged in analyzing radio-telescope             computer security quiz, and an “IT
data from space in a search for signals          Security Tip of the Day” published to TVA
transmitted by extraterrestrial intelligence.    employees in our daily e-mail “TVA
As the task of analyzing this data               Today.”
consumes an extraordinary amount of
                                                 FOSSIL PLANT MANAGEMENT
computer memory, the SETI@home
                                                 ISSUES
project solicits internet users to down-
load its screensaver program, which              Approximately 100 Kingston Fossil Plant
analyzes SETI data while the users’              (KIF) Production Units employees signed
computers are idle. (It is estimated that        letters to the TVA Chairman, the Govern-
thousands of internet users are partici-         ment Accounting Office, and the United
pating in SETI@home.)                            States Secretary of Labor raising various
                                                 issues at KIF. In addition, the OIG
Although we found no evidence the                received a similar list of concerns. The
program caused damage to TVA’s                   concerns primarily involved alleged
computer network, the network’s link
with the SETI@home web site opened a


                                                 SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001                  14
I N V E S T I G A T I O N S




                        management misconduct surrounding               ENVIRONMENTAL CRIMES JOINT
                                                                        TASK FORCE (ECJTF)
                        leave issues, such as alleged harassment
                        of employees who took sick leave.
                                                                        We continued our participation in the
                                                                        ECJTF, which is comprised of members
                        We interviewed 24 KIF employees and
                                                                        from numerous state and federal agen-
                        supervisors and reviewed relevant
                                                                        cies, including the Federal Bureau of
                        documentation, policies, and laws.
                                                                        Investigation (FBI), Environmental
                        Although evidence did not show man-
                                                                        Protection Agency, Department of
                        agement misconduct, it indicated the
                                                                        Justice, and TVA’s OIG.
                        allegations regarding leave issues were
                        symptomatic of different underlying
                                                                        ECJTF focuses enhanced law enforce-
                        concerns such as resource constraints,
                                                                        ment resources against individuals and
                        communication problems, and poor
                                                                        companies involved in environmental
                        morale.
                                                                        crimes and prosecutes those individuals
                                                                        and companies by applying the most
                        As a result of our investigation, manage-
                                                                        effective federal and state criminal and
                        ment notified us they were taking action
                                                                        civil statutes. Highlights of the task
                        related to our recommendations as
                                                                        force’s work include the following.
                        follows:

                                                                        Company Hired Unauthorized and
                        ■     Providing guidance and clarification on
                                                                        Inadequately Trained Immigrants to
                              leave policies to supervisors and         Remove Asbestos—Guilty Pleas
                              employees, including distributing sick
                                                                        Investigation revealed that from 1997 to
                              leave guidelines and holding meetings
                                                                        February 2000, a Chattanooga-based
                              to communicate expectations.
                                                                        company, with offices in Denver and
                        ■     Taking directed action to improve
                                                                        Baton Rouge, hired unauthorized
                              communications and morale, includ-
                                                                        immigrants from Mexico and Central and
                              ing holding quarterly “all hands”
                                                                        South America to remove asbestos in
                              meetings and having regular plant
                                                                        locations across the United States. Many
                              visits by the Fossil Power Group’s
                                                                        of the unauthorized workers were not
                              executive and senior vice presidents.
                                                                        properly trained in asbestos removal, and
                        ■     Determining if further management
                                                                        many received false training and health
                              action is warranted to address
                                                                        certifications.
                              concerns raised by employees we
                              interviewed during our investigation.




15   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                          I N V E S T I G A T I O N S




At the company’s Denver office, asbestos         misdemeanor count of engaging in a
abatement classes were taught in                 pattern and practice of knowing
Spanish. These classes, required by              employment of unauthorized aliens.
federal and state law to prepare workers
                                              Fish Kill—Guilty Plea
to handle asbestos, were actually used to
recruit workers known to be in the            During the previous reporting period, a
country illegally. During the classes, the    Kentucky coal company and one of its
instructor told workers to cooperate with     officers pled guilty (one count each) to
the circumvention of safety procedures        violating the Clean Water Act.
and to throw asbestos in immigration
                                              The company violated the terms of a
agents’ faces before running away from
                                              permit covering a mining and reclamation
them.
                                              operation in Campbell County, Tennes-
As a result of the ECJTF investigation,       see. Investigation revealed the company
                                              improperly pumped mine wastewater into
■   In federal courts located in Tennessee,   a nearby creek, adversely altering its pH
    Colorado, and Louisiana, the com-         levels and reducing the oxygen in the
    pany pled guilty to a total of 18         creek. A significant number of dead and
    criminal counts charging various          dying fish were found 200-300 feet
    offenses, including conspiracy, wire      downstream from the discharge point.
    fraud, money laundering, making a         (The mining company officer admitted
    false statement and a false claim, and    responsibility for the discharge, and the
    encouraging and inducing unautho-         pumping was immediately stopped.)
    rized aliens.
■   The company president and vice            During this reporting period, the com-
    president pled guilty to conspiracy,      pany and its officer were sentenced in
    wire fraud, and encouraging and           federal court. They were ordered to pay a
    inducing unauthorized aliens.             total of $20,000 in fines. In addition, the
■   A managerial employee in the Denver       company voluntarily agreed to contribute
    office pled guilty to encouraging and     $230,000 to state and federal agencies
    inducing unauthorized aliens, wire        for cost recoveries, contributions to
    fraud, false statements, and false        various environmental projects, and
    claims.                                   funding for continued enforcement of
■   The Denver and Baton Rouge office         environmental laws.
    managers and the Chattanooga
    payroll clerk each pled guilty to a


                                              SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001                   16
I N V E S T I G A T I O N S




                        SIX TVA OIG EMPLOYEES                            many facets of the investigation,
                        RECOGNIZED BY FBI DIRECTOR
                                                                         including lengthy surveillance and
                        LOUIS J. FREEH
                                                                         undercover activities.
                        Special Assignment                           ■   Senior Special Agents Andrew R.
                                                                         Derryberry and Michael G. Duncan,
                        An OIG special agent was recognized for
                                                                         and former department Manager
                        a special assignment in conjunction with
                                                                         James M. Reed were recognized for
                        an FBI investigation.
                                                                         the many hours worked on the
                        For the OIG special agent’s significant          physical surveillance of the company
                        contribution to the investigation, he            both before and during the under-
                        received a certificate from Director Freeh       cover operation and for their assis-
                        in recognition of his commendable                tance in the complex search warrant.
                        performance.                                 ■   Assistant Inspector General for
                                                                         Investigations G. Donald Hickman
                        Environmental Crimes—Guilty Pleas                was recognized for providing manage-
                        Five TVA OIG employees participated in           ment oversight and direction on the
                        an extensive ECJTF investigation                 case.
                        resulting in a Bradley County, Tennessee,
                                                                     The investigated company specialized in
                        construction company, its owner, and a
                                                                     bridge construction and bid on local,
                        company foreman each pleading guilty to
                                                                     state, and federal government construc-
                        various environmental crimes. Upon
                                                                     tion projects. The company performed
                        sentencing, the company could be
                                                                     maintenance on its own heavy equip-
                        ordered to pay over $800,000 in fines
                                                                     ment, e.g., cranes, barges, and cement
                        and reparations.
                                                                     mixers. Maintaining the equipment
                        TVA OIG employees were presented             included repairing and repainting, which
                        certificates of recognition from Director    was done at the construction company’s
                        Freeh for their contributions to the         site.
                        investigation as follows.
                                                                     Evidence showed that, at the direction of
                        ■     TVA OIG Senior Special Agent           company management, paint shop
                              Joseph P. Boehr was recognized for     employees cleaned paint guns and hoses
                              his contribution as co-case agent in   with solvent which was ultimately poured
                              this matter, bringing together the     into a 55-gallon drum. When the drum
                                                                     became partially full, it was taken to a




17   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                               I N V E S T I G A T I O N S




burn pit at the construction company’s
site and poured onto wood and other
refuse for burning. After the solvent was
poured onto the pit’s contents, it was
allowed to sit for several days before
being ignited because it was highly
flammable. Varying quantities of paint-
gun solvent and paint waste were
disposed into the pit periodically and
burned approximately every other week
for many years.

The company pled guilty to one count of
knowingly treating, storing, or disposing
of a hazardous waste without a permit in
violation of the Resource Conservation
and Recovery Act. The owner pled guilty
to one count relative to the improper
disposal of a hazardous waste committed
by his company. The foreman pled guilty
to being an accessory after the fact
relative to failing to complete the appropri-
ate documentation for disposal of the
material.

The subjects are awaiting sentencing.




                                                SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001     18
 I N V E S T I G A T I O N S




                                  Administrative and Disciplinary Actions Since
                                                  April 1, 1996*
                                                   Total = 258
                                 Suspensions/                   Counseling/
                               Demotions/Transfers         Management Techniques
                                Resignations/     9%       33%

                                Terminations 12.5%
                                                   20%      25.5%
                                                                       Reemployment
                                    Oral/Written                          Flagged
                                     Warnings

                                   *Prosecutive referrals are shown at Appendix 3.




                                          The breakdown of the 83 closed investigations involving
                                                     TVA organizations are shown below.


                                                                              Fossil
                                                                              Power
                                                         TVA Nuclear
                                                                               17%
                                                                       17%                      Other
                                                                                         19%
                                                   River System     9.5%
                                                   Operations &                37.5%
                                                   Environment
                                                                                    Chief Administrative Officer/
                                                                                       TVA-Wide Corporate
                                                                                             Services




                                                                              Sources of Referrals for OIG
                                                                             Investigations or Audit Action
                                                                                       Total = 43

                                                                                   General
                                                                                    Public        Anonymous
                                                                                                     2.5%
                                                                                       32.5%
                                                           Former TVA/
                                                                             21%
                                                            Contractor                         44%
                                                            Employees
                                                                                                        TVA/Contractor
                                                                                                          Employees




19   TVA/OFFICE OF THE INSPECTOR GENERAL
                                                      S P E C I A L               P R O J E C T S   ■




In addition to conducting audits and           safety issues, concerns, or opinions to
investigations, our office continues to        management and that such expressed
perform special projects upon request by       issues, concerns, or opinions are timely
our stakeholders, primarily the Board of       and adequately considered and re-
Directors, TVA management, and                 solved.” In support of this effort, we
Congress. During this reporting period,        periodically survey TVA and contractor
we conducted 13 special projects.              employees and review closed case files to
Representative projects are highlighted        assess the effectiveness of the program.
below.                                         As discussed below, we completed five
                                               reviews of the Concerns Resolution
TVA OFFICE SPACE UTILIZATION
                                               Program during this reporting period.
AND VACANCY RATES

                                               ■   We assessed the overall effectiveness
At the request of Senator Jeff Sessions,
                                                   of TVA’s Concerns Resolution
we reviewed the status of TVA’s office
                                                   Program by (1) interviewing 249 TVA
space and vacancy rates, including the
                                                   and contractor employees concerning
recently occupied space in the Highland
                                                   their willingness to report nuclear
Ridge Tower (HRT) in Nashville, Tennes-
                                                   safety and quality issues, (2) reviewing
see. Our report addressed (1) the status
                                                   closed case files, and (3) tracking the
of TVA office space in Knoxville, Chatta-
                                                   number of allegations recorded by the
nooga, and Nashville, Tennessee, and
                                                   Nuclear Regulatory Commission
Huntsville and Muscle Shoals, Alabama;
                                                   involving TVA’s nuclear program.
(2) TVA’s role in constructing the HRT
                                                   Based on our findings, we concluded
office space; (3) the cost of the HRT office
                                                   the fundamental mission of the
space as compared to the space
                                                   Concerns Resolution Program was
previously occupied by TVA in Nashville;
                                                   being met.
and (4) the status of the previously
                                               ■   We assessed the willingness of TVA
occupied Nashville office space.
                                                   and contractor employees at TVA’s
CONCERNS RESOLUTION                                Browns Ferry Nuclear Plant to report
PROGRAM                                            nuclear safety and quality issues by
                                                   randomly surveying 228 of the 1,312
TVA’s Concerns Resolution Program is
                                                   TVA and contractor employees who
designed to help ensure all TVA and
                                                   had plant access. The responses we
contractor employees supporting TVA’s
                                                   received were generally positive and
nuclear facilities “are free to express




                                               SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001   20
S P E C I A L   P R O J E C T S




                            compared favorably to the responses       ■   We assessed the willingness of TVA’s
                            we received from the overall                  Sequoyah Nuclear Plant Radiological
                            assessment.                                   Control employees to report nuclear
                        ■   We assessed the willingness of the            safety and quality issues by randomly
                            security employees provided by a TVA          surveying 25 of the 56 employees in
                            contractor to report nuclear safety and       this group. The responses we
                            quality issues by randomly surveying          received were generally positive and
                            82 of the 215 employees in this group.        compared favorably to the responses
                            Although these employees said they            we received from the overall
                            would report nuclear safety or quality        assessment.
                            issues through some avenue, the           ■   We assessed the willingness of TVA’s
                            responses to other survey questions           Watts Bar Nuclear Plant instrument
                            varied significantly from the responses       maintenance employees to report
                            we received in our overall assessment.        nuclear safety and quality issues by
                            In summary, we concluded the                  randomly surveying 23 of the 53
                            nuclear security workforce was less           employees in this group. The re-
                            comfortable raising nuclear safety or         sponses we received from this group
                            quality issues than employees and             were generally not as positive on key
                            contractors included in the overall           questions as those we received from
                            assessment.                                   the overall assessment.




21   TVA/OFFICE OF THE INSPECTOR GENERAL
                     L E G I S L A T I O N         A N D      R E G U L A T I O N S               ■




During this reporting period, Congress
enacted S. 1707 which, among other
things, made the TVA Inspector General
a Presidential appointment. That bill
became Public Law 106-422, which was
effective November 1, 2000. This
legislation makes the appointment of
TVA’s Inspector General consistent with
the appointment of Inspectors General at
other large agencies. Until a Presidential
appointment is made, the TVA Inspector
General continues to operate as an
agency-appointed Inspector General.

We also continued to follow other issues
of interest to the OIG and TVA, including
the Government Information Security Act,
legislation to amend the Inspector
General Act, various proposals to
deregulate the electric industry, and
medical privacy regulations.




                                             SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001   22
■   A P P E N DI C E S




       SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001
Appendix 1
Page 1 of 3

              OIG AUDIT REPORTS ISSUED DURING
              THE SIX-MONTH PERIOD ENDING MARCH 31, 2001

              The following table summarizes final audit reports issued by the OIG from October 1, 2000 through March 31, 2001.

                                                                                                                  FUNDS
                DATE         REPORT                                          QUESTIONED      UNSUPPORTED       TO BE PUT TO
               ISSUED        NUMBER            REPORT TITLE                     COSTS          COSTS            BETTER USE

              10/17/2000 2000-083C         Bodine, Inc.

              10/19/2000 2000-027C         Voith Hydro, Inc. -
                                           Contract 93PBL-79099E             $1,418,000                           $505,000

              10/31/2000 2000-063F-02 Agent Officer Payments for
                                      Gift Certificates

              11/02/2000 2000-029C-06 Hydrochem Industrial
                                      Services, Inc.

              11/02/2000 2000-070C         Alstom Power, Inc. - Affiliated
                                           Companies - SCR Alliance
                                           Project                                                              10,653,385

              11/06/2000 2000-080C         Roberts & Schaefer Contract
                                           95P6G-79124H,
                                           7th Supplement

              11/06/2000 2000-081C         Valmont Steel Poles                                                     305,000

              11/15/2000 2000-078C         CDI Information Services              20,072

              11/27/2000 2001-002C         C2 Creative - Contracts
                                           98BKX-234018-00 and
                                           99BPQ-246817-00

              11/28/2000 2000-091C         Foster Wheeler Energy
                                           Corporation - Proposal                                                3,029,400

              11/28/2000 2001-003C         Marconi Communications
                                           (formerly Fore Systems, Inc.)

              12/14/2000 2000-089C         Shook & Fletcher Insulation Co.        1,999

              12/14/2000 2001-017C         Waste Management

              12/18/2000 2001-016C         Trans-Cycle Industries

              01/02/2001 2000-088F         Independent Contractor
                                           Versus Employee Review

              01/05/2001 2000-084C         Zycron Computer Services

              01/19/2001 2000-059C         Media South, LLC                     583,973

              01/25/2001 2000-076C         National Systems and Research         15,591

              01/25/2001 2000-082C         Kinder Morgan - Contracts
                                           97P02-204503, 97P03-221681,
                                           and 00P03-260045




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                   Appendix 1
                                                                                                   Page 2 of 3


                                                                                        FUNDS
 DATE       REPORT                                       QUESTIONED   UNSUPPORTED   TO BE PUT TO
ISSUED      NUMBER         REPORT TITLE                     COSTS       COSTS        BETTER USE

01/26/2001 2001-024C   Performance Bond Payment for
                       Contract 00NNQ-258310-000
                       With Holtec International           $97,831      $97,831

01/30/2001 1999-025P   Review of TVA’s Current
                       Arrangement for Meeting
                       Personnel Ground Transportation
                       Needs                                                         $1,600,000

02/01/2001 2000-039F   Pre-Implementation Review of
                       Supply Chain System Internal
                       Controls

02/05/2001 2000-049C   ABB Automation, Inc. (formerly
                       Bailey Controls Company)                                       1,056,000

02/07/2001 2000-031C   Scientific Sales, Inc.              319,447      263,241

02/13/2001 2001-005F   Pre-Implementation Review of
                       Security for TVA’s New Supply
                       Chain System

02/15/2001 2000-058F   Review of TVA’s Decommissioning
                       Fund                                                          49,900,000

02/15/2001 2000-066C   Bicentennial Volunteers, Inc.                                  2,996,797

02/23/2001 2000-016P   Review of TVA Coal Quality
                       Adjustment Report Payments          134,415

02/26/2001 2001-011P   Review of TVA’s Executive
                       Compensation and Benefits

02/27/2001 2001-027C   Computer Horizon’s Corp. -
                       Preaward Audit                                                  247,000

03/06/2001 2000-054F   Pre-Implementation Review of
                       System Testing for Supply
                       Chain System

03/06/2001 2000-074F   Review of Revenue Collection
                       Processes at TVA’s
                       Watershed Teams

03/07/2001 2000-063F   Controls Over Agent Officer
                       Payments

03/07/2001 2001-013C   University of Colorado -
                       Contract TV-96003V

03/07/2001 2001-030C   Preaward Audit of CDI Information
                       Technology Services Response to
                       TVA RFP4P-267604                                                109,000




                                                  SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001
Appendix 1
Page 3 of 3

                                                                                                         FUNDS
                DATE      REPORT                                          QUESTIONED   UNSUPPORTED   TO BE PUT TO
               ISSUED     NUMBER          REPORT TITLE                       COSTS       COSTS        BETTER USE

              03/12/2001 2000-079C   Review of Motion Industries, Inc.
                                     Contract 98XA1-208664                  $21,223      $21,223

              03/12/2001 2001-031C   Zycron Computer Services

              03/13/2001 2001-041F   Verification of Summarized
                                     Federal Agencies’ Centralized
                                     Trial-Balance System (Facts) Data

              03/14/2001 2001-009F   Pre-Implementation Review of
                                     Fuels Management System
                                     Security

              03/21/2001 2001-038C   Chemical Waste
                                     Management, Inc.

              03/28/2001 2000-068C   Review of Revised Craft Labor
                                     Rates As Per the PMMA Schedule
                                     Effective May 22, 2000

              03/28/2001 2001-029C   Science Applications International
                                     Corporation                                                        $20,182

              03/30/2001 2001-008F   Pre-Implementation Review of
                                     Fuels Management System
                                     Testing


              TOTAL      43                                               $2,612,551    $382,295     $70,421,764




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                              Appendix 2
                                                                                                              Page 1 of 2

OIG’S REPORT ON MANAGEMENT DECISIONS FOR THE
SIX-MONTH PERIOD ENDING MARCH 31, 2001

The following Tables I and II summarize management decisions made by TVA management on OIG
recommendations contained in final audit reports. The tables reflect amounts which were questioned and
recommended to be put to better use and track the disposition of these amounts through management decision.

                                              TABLE I
                             TOTAL QUESTIONED AND UNSUPPORTED COSTS

                                                     NUMBER            QUESTIONED        UNSUPPORTED
     AUDIT REPORTS                                  OF REPORTS           C OSTS             C OSTS


A.   For which no management
     decision has been made by
     the commencement of the period                        2             $1,409,712           $480,712

B.   Which were issued during
     the reporting period                                  9              2,612,551            382,295

     Subtotal (A + B)                                    11              $4,022,263           $863,007

C.   For which a management
     decision was made during
     the reporting period                                10*              3,093,263            863,007

     1.   Dollar value of
          disallowed costs                                 9              3,009,826            843,167

     2.   Dollar value of
          costs not disallowed                             3                 83,437              19,840

D.   For which no management
     decision has been made by
     the end of the reporting
     period                                               1                 929,000                   0

E.   For which no management
     decision was made within
     six months of issuance                                1                929,000                   0

* The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
  disallowed and not disallowed by management.




                                                     SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001
Appendix 2
Page 2 of 2

                                                          TABLE II
                                               FUNDS TO BE PUT TO BETTER USE

                                                                   NUMBER                             FUNDS TO BE PUT
                   AUDIT REPORTS                                  OF REPORTS                           TO BETTER USE


              A.   For which no management
                   decision has been made by
                   the commencement of the period                        0                                         $0

              B.   Which were issued during
                   the reporting period                                11                                  70,421,764

                   Subtotal (A + B)                                    11                                $70,421,764

              C.   For which a management
                   decision was made during
                   the reporting period                                  7*                                67,409,764

                   1.   Dollar value of
                        disallowed costs                                 6                                37,449,582

                   2.   Dollar value of
                        costs not disallowed                             2                                 29,960,182

              D.   For which no management
                   decision has been made by
                   the end of the reporting
                   period                                                4                                  3,012,000

              E.   For which no management
                   decision was made within
                   six months of issuance                                0                                           0

              * The total number of reports differs from the sum of C.1 and C.2 when the same reports contain both costs
                disallowed and not disallowed by management.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                       Appendix 3
                                                                                                       Page 1 of 1

INVESTIGATIVE REFERRALS AND PROSECUTIVE RESULTS



INVESTIGATIVE REFERRALS                      SUBJECTS             RESULTS THIS PERIOD


Subjects referred to U.S. Attorneys             20                    19   Indictments
                                                                      14   Convictions
                                                                       7   Referrals Declined

Subjects referred to other agencies             2                 OWCP reduced or suspended
for investigative or administrative action                        benefits of, and/or claimed
                                                                  overpayment for, four individuals,
                 TOTAL                          22                creating recoveries and projected
                                                                  savings totaling $562,276.




                                                        SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001
Appendix 4
Page 1 of 1

              AUDIT REPORTS WITH CORRECTIVE ACTIONS PENDING

              Final corrective actions in two contract compliance reports and three operational audits have not yet
              been fully implemented.

              Report 1996-037C-01 issued August 11, 1998
              The report contained one recommendation regarding the contractor’s ability to produce adequate
              documentation for billed costs. TVA has not reached final settlement with contractor.

              Report 1996-037C-02 issued September 03, 1998
              The report contained two recommendations—one regarding overpayments and one regarding the
              contractor providing supporting documentation for billed costs. TVA has not reached final settlement
              with contractor.

              Report 1999-028P issued January 28, 2000
              The report contained two recommendations regarding TVA’s Environmental Executive authorizing
              Environmental Auditing to (1) perform environmental management system reviews and (2) follow up
              on corrective actions and assess closure decisions. TVA is currently implementing their planned
              actions.

              Report 2000-021F issued March 17, 2000
              The report contained two recommendations regarding the internal controls associated with Material
              Safety Data Sheets. TVA has resolved one of the recommendations and is implementing their
              planned actions for the other recommendation.

              Report 2000-073P issued September 11, 2000
              The report contained five recommendations regarding the internal control over physical inventories.
              TVA is currently implementing their planned actions.




    TVA/OFFICE OF THE INSPECTOR GENERAL
                                                                                                                  Appendix 5
                                                                                                                  Page 1 of 1

OIG REPORTING REQUIREMENTS

Information required by the Inspector General Act of 1978, as amended, is included in this semiannual report as
indicated below.

Section 4(a)(2)     Review of Legislation and Regulations             Page 22

Section 5(a)(1)     Significant Problems, Abuses, and                 Pages 5-21
                    Deficiencies

Section 5(a)(2)     Recommendations With Respect to                   Pages 5-21
                    Significant Problems, Abuses, and
                    Deficiencies

Section 5(a)(3)     Recommendations Described in Previous             Appendix 4
                    Semiannual Reports on Which Corrective
                    Action Has Not Been Completed

Section 5(a)(4)     Matters Referred to Prosecutive                   Appendix 3
                    Authorities and the Prosecutions
                    and Convictions That Have Resulted

Sections 5(a)(5)    Summary of Instances Where Information            None
and 6(b)(2)         Was Refused

Section 5(a)(6)     Listing of Audit Reports                          Appendix 1

Section 5(a)(7)     Summary of Particularly Significant Reports       Pages 7-21

Section 5(a)(8)     Status of Management Decisions for                Appendix 2
                    Audit Reports Containing Questioned Costs

Section 5(a)(9)     Status of Management Decisions for                Appendix 2
                    Audit Reports Containing Recommendations
                    That Funds Be Put to Better Use

Section 5(a)(10)    Summary of Unresolved Audit Reports               Page 11
                    Issued Prior to the Beginning of the
                    Reporting Period

Section 5(a)(11)    Significant Revised Management Decisions          None

Section 5(a)(12)    Significant Management Decisions With             None
                    Which the Inspector General Disagreed




                                                         SEMIANNUAL REPORT/OCTOBER 1, 2000 ~ MARCH 31, 2001
                                                    HIGHLIGHTS

                                                          FOR SEMIANNUAL REPORTING PERIODS
                                               MAR 31,       SEPT 30,     MAR 31,     SEPT 30,    MAR 31,
                                                2001           2000        2000        1999        1999


  ANNUAL BUDGET (In Millions of Dollars)           8.6           7.2        7.2          7.3         7.3
  CURRENT STAFFING                                  74            77         79           78          81
  AUDITS & SPECIAL PROJECTS
  AUDITS IN PROGRESS
  Carried Forward                                  43             48         36           34*         40
  Started                                          52             38         59           41          42
  Canceled                                          (7)            (8)        (2)          (3)       (11)
  Completed                                       (43)           (35)       (45)         (36)        (38)
  In Progress at End of Reporting Period           45             43         48           36          33


  AUDIT RESULTS (Thousands)
  Questioned Costs                             $2,613        $1,800        $952       $1,678      $1,137
  Disallowed by TVA                             3,010           379         820          673         946
  Recovered by TVA                                821           390       1,333          580         607


  Funds to Be Put to Better Use               $70,422       $12,862      $5,296       $9,861      $1,402
  Agreed to by TVA                             37,450        12,499       5,509        7,612         980
  Realized by TVA                              30,918        17,340       5,775        1,834         389


  SPECIAL PROJECT RESULTS (Thousands)
  Completed                                        13             8         12               11       18
  Cost Savings Identified/Realized                  0          $233       $345                0        0


  INVESTIGATIONS
  INVESTIGATION CASELOAD
  Opened                                           86           132        107            88          59
  Closed                                           83            99        111            81          66
  In Progress at End of Reporting Period          173           170        137 *         140         133


  INVESTIGATIVE RESULTS (Thousands)
  Recoveries                                     $214          $179      $3,758       $1,772      $1,145
  Savings                                         532           521         988        1,422       1,912
  Fines/Penalties                                 250            11          25            5          27 **


  ADMINISTRATIVE AND
  DISCIPLINARY ACTIONS
  Recommended (# of Cases)                         14             13         21              21       19
  Actions Taken (# of Subjects)                    30             11         13              17       11
  Counseling/Management
    Techniques (# of Cases)                          9              6          5              3        4


  PROSECUTIVE ACTIVITIES (# of Subjects)
  Referrals                                         7             32           7              8        4
  Indictments                                      19              5           6              7        6
  Convictions                                      14              5           9              5        9


  * Adjusted from previous semiannual reports.
  ** Category added to Highlights during reporting period indicated.




TVA/OFFICE OF THE INSPECTOR GENERAL
